U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 4, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Ultratec, Inc. v. Captioncall, LLC, et al.
S.Ct. No. 21-1700
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 4, 2021,
and placed on the docket on June 8, 2021. The government’s response is due on September 1,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 1, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1700
ULTRATEC, INC.
CAPTIONCALL, LLC, ET AL.

DONALD K. SCHOTT
QUARLES & BRADY
33 EAST MAIN STREET
SUITE 900
MADISON, WI 53703
608-283-2426
DON.SCHOTT@QUARLES.COM

